                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



September 19, 2013

Katherine J. Black, LP 3A-C

FINAL REPORT – EVALUATION 2013-14950 – REVIEW OF TVA’S SUCCESSION
PLANNING



Attached is the subject final evaluation report for your review and action. Your written
comments, which addressed your management decision and planned actions for four of
the recommendations, have been incorporated in the report. For those four
recommendations, please notify us when final actions are complete. Please advise us of
your planned actions in response to the remaining recommendations within 60 days from
the date from this report.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions or wish to discuss our findings, please contact me at (865) 633-
7450 or Gregory R. Stinson, Director, Evaluations, (865) 633-7367. We appreciate the
courtesy and cooperation received from your staff during the audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Evaluations)
ET 3C-K

KSL:FAJ
Attachment
cc (Attachment):
     Sharon M. Best, LP 3A-C
     Peyton T. Hairston, Jr., WT 7B-K
     Janet C. Herrin, WT 7A-K
     Joseph J. Hoagland, WT 7C-K
     William D. Johnson, WT 7B-K
     Dwain K. Lanier, MR 3K-C
     Justin C. Maierhofer, WT 7B-K
     Richard W. Moore, ET 4C-K
     Andrea L. Williams, WT 9B-K
     OIG File No. 2013-14950
      WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
      distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
              is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
                               TVA RESTRICTED INFORMATION


Office of the Inspector General                         Evaluation Report
                                                                      To the Senior Vice President,
                                                                      Human Resources and
                                                                      Communications




REVIEW OF TVA’S
SUCCESSION PLANNING




Audit Team                                                                                            Evaluation 2013-14950
Kristin S. Leach                                                                                        September 19, 2013
John A. Jacosalem

             WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
             distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                     is not to be further distributed without prior approval of the Inspector General or his designee.


                             TVA RESTRICTED INFORMATION
Office of the Inspector General                                Evaluation Report




ABBREVIATIONS
ER                         Employee Relations
ERC                        Employee Relations Consultant
FY                         Fiscal Year
HR                         Human Resources
NPG                        Nuclear Power Group
OIG                        Office of the Inspector General
RN                         Ready Now
SBU                        Strategic Business Unit
SPP                        Standard Programs and Processes
SWM                        Strategic Workforce Management
TVA                        Tennessee Valley Authority




Evaluation 2013-14950

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                    Evaluation Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND ………………………………………………………………………1

OBJECTIVE, SCOPE, AND METHODOLOGY……………………………..2

FINDINGS AND RECOMMENDATIONS ……………………………………..3
    TVA HAS MADE IMPROVEMENTS TO SUCCESSION PLANNING .............. 3

    AREAS FOR IMPROVEMENT STILL EXIST .................................................. 5

    SOME BEST PRACTICES COULD BE STRENGTHENED ............................ 7

    ADDITIONAL INFORMATION....................................................................... 11

RECOMMENDATIONS …………………………………………………………..11


APPENDIX
MEMORANDUM DATED AUGUST 30, 2013, FROM KATHERINE J. BLACK TO
ROBERT E. MARTIN




Evaluation 2013-14950

                                  TVA RESTRICTED INFORMATION
                           Evaluation 2013-14950 – Review of TVA’s
                                    Succession Planning
                                        EXECUTIVE SUMMARY

     Why the OIG Did This Evaluation

         The Tennessee Valley Authority (TVA) has stated its future depends on
         effective succession planning and faces a potential workforce challenge
         due to retirement within the next 5 years. Also, TVA has identified a risk
         of senior leadership attrition that could leave a gap in key positions. This
         review was conducted as a follow-up to a previous OIG (Office of the
         Inspector General) review of TVA’s Succession Planning.i The objective
         of this review was to assess TVA’s succession planning.

     What the OIG Found

         Our review found TVA has made improvements to succession planning;
         however, areas for improvement still exist. In addition, we found TVA
         could strengthen some best practices.

         TVA has made improvements to its succession planning process since our
         previous review in 2006. Improvements include the use of a Talent Grid,
         implementation of succession planning metrics, and a more accurate
         attrition prediction model.

         While TVA has made progress in its succession planning process, we
         found, through interviews and review of documentation, areas for
         improvement still exist. Specifically, areas of improvement include:
         (1) the follow-up of action items identified in talent reviews including the
         development of organizational action plans; (2) cross-pollination of talent;
         (3) reduction of talent review preparation time; and (4) frequent revisions
         of the talent review and succession planning process, which have caused
         frustration among TVA management. Additionally, TVA is working to
         address areas of concern regarding populating the succession plans with
         realistic candidates.

         As part of this review, we identified succession planning best practices and
         compared them to the processes TVA currently has in place. Of ten best
         practices identified, we found TVA could strengthen executive ownership,
         onboarding of succession candidates, and transparency of the succession
         planning process. In addition to these findings, all TVA managers who
         were interviewed expressed concerns with the use of forced distribution for
         the Talent Grid.



i
    Inspection 2006-513I – Review of TVA’s Succession Planning.
                                                                                 Page i

                                  TVA RESTRICTED INFORMATION
                 Evaluation 2013-14950 – Review of TVA’s
                          Succession Planning
                           EXECUTIVE SUMMARY

What the OIG Recommends

  We recommend the Senior Vice President, Human Resources and
  Communications:

     Work in conjunction with TVA organizations to improve follow-up
      actions by developing organizational action plans as stated in TVA-
      SPP-11.301, Succession Planning, Section 3.2.3.
     Evaluate options to incorporate cross-pollination of TVA organizations
      into the succession planning process, including a unified succession
      planning system that could also reduce talent review preparation.
     Determine if changes and initiatives to the talent review and
      succession planning process are working and intended results are
      achieved before additional changes are made.
     Complete and implement the Strategic Workforce Management,
      Standard Programs and Processes, including a unified definition for a
      mission critical position.
     Work with TVA management to develop a plan that promotes
      executive ownership of talent development.
     Consider developing formalized transition plans, similar to the Nuclear
      Power Group, in other organizations.
     Clarify the succession planning process by producing a high-level,
      TVA-wide communication that describes the talent review and
      succession planning process, and consider the merits of
      communicating performance and potential.

TVA Management’s Comments

  TVA management agreed with the findings and recommendations in this
  report. See the Appendix for TVA’s complete response.

Auditor’s Response

  The OIG concurs with TVA management’s comments.




                                                                        Page ii

                       TVA RESTRICTED INFORMATION
Office of the Inspector General                                                              Evaluation Report


BACKGROUND
In 2010, the Tennessee Valley Authority’s (TVA) TVA Today article stated, “TVA’s
future depends on effective succession planning at all levels. Placing the right
people in the right positions can be a challenge for any company, but when a
company’s workforce is as diverse and highly skilled as TVA’s, it is even harder.”
According to TVA, 32 percent (or just over 4,000) of its 12,762 employees will be
eligible to retire over the next 5 years. Succession Planning, as defined by TVA-
SPP-11.301, is the process of reviewing current talent and future talent needs,
identifying bench strength and gaps, and developing and executing development
plans. This policy “. . . defines the talent management process which ensures
sufficient talent is available for TVA to achieve its mission, have a competitive
advantage, enhance corporate performance, and maximize the productivity of its
talent pool.” Succession Planning is a portion of the Workforce Development
component of TVA’s Strategic Workforce Management (SWM).1 TVA has begun
to implement SWM initiatives into business planning to better connect business
strategies with workforce planning efforts, which will help identify leadership and
talent needs across TVA.

Talent Management and Acquisition2 has oversight of the implementation of
talent identification and succession planning for TVA. According to TVA,
continuity of leadership is important to the sustainability of its business. In order
to achieve continuity, TVA conducts talent reviews to evaluate potential leaders
and develop succession plans.

In conducting talent reviews, Employee Relations (ER)3 facilitates discussion
among management using the Talent Grid, formerly known as the 9-Box Grid.
Managers and Specialists are placed into the grid based on potential and
performance. The corresponding Talent Grid placement4 is used to help
calibrate candidate placement on the succession plan. Using the results of the
Talent Grid, employees are identified on succession plans as Ready Now (RN),
Ready Long-Term, or Deep Dive candidates.




1
    TVA’s SWM is a process that analyzes the current workforce, determines future workforce needs,
    identifies staffing and skills gaps, mitigates staffing risks and knowledge loss, and leverages metrics
    associated with turnover and attrition to strategically align the organization’s human capital with business
    goals and objectives.
2
    Talent Management and Acquisition was previously known as talent review and Succession Planning but
    was renamed during this review.
3
    ER is an organization of human resource professionals who consult with management in progressive
    programs and initiatives including workforce management and staffing, leadership continuity, succession
    planning, performance management, compensation, employee recognition, learning and development,
    and labor relations; which enhance the work force strategies and improve efficiency, innovation, and
    competitiveness.
4
    The Talent Grid placement is the employee’s location in one of the nine boxes on the Talent Grid. The
    highest rating being Box 1, which is high potential, high performance and the lowest rating being Box 9,
    which is low potential, low performance.
Evaluation 2013-14950                                                                                   Page 1

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                         Evaluation Report


According to TVA-SPP-11.301, Succession Planning:

   RN candidates currently possess the necessary qualifications and credentials
    to assume the responsibilities of the succession planning position
    immediately.
   Ready Long-Term candidates currently lack the necessary qualifications or
    credentials for immediately assuming the responsibilities of the succession
    planning position but possess the potential to obtain these requisites within
    3 years.
   Deep Dives are candidates with high leadership potential who are more than
    36 months from being ready now.

The policy also states that “. . . as positions identified on the succession plan
become vacant, hiring managers and ER review the succession plan and
determine if the position will be filled internally with a succession plan candidate.”

Currently, Strategic Business Units (SBU) and Business Units are required to
conduct talent reviews and generate/revise succession plans semiannually,
which include a mid-year and end-of-year review.

OBJECTIVE, SCOPE, AND METHODOLOGY
TVA has stated its future depends on effective succession planning and faces a
potential workforce challenge due to retirement within the next 5 years. Also,
TVA has identified a risk of senior leadership attrition that could leave a gap in
key leadership positions. This review was conducted as a follow-up to a previous
review: 2006-513I Review of TVA’s Succession Planning. The objective of this
review was to assess TVA’s succession planning. The scope of this review
included TVA’s succession planning activities.

To achieve our objective, we:

   Identified and reviewed applicable policies and procedures to determine
    TVA’s succession planning process.
   Interviewed applicable TVA personnel and management involved in TVA’s
    succession planning process, including ER managers and consultants and
    TVA executives to gain an understanding of the talent review and succession
    planning process and obtain feedback from those involved in the process.
   Attended training provided by TVA Human Resources (HR) to gain an
    understanding of TVA’s talent review and succession planning process
    including recent changes made to the talent review process.




Evaluation 2013-14950                                                             Page 2

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                      Evaluation Report


   Identified succession planning best practices by reviewing articles, journals,
    and Web sites and compared them to TVA practices to determine if TVA has
    incorporated best practices in its succession planning process.
   Reviewed TVA’s current succession planning metrics to determine what TVA
    is tracking along with the associated goals.
   Determined if progress has been made in areas identified in a previous audit
    of the succession planning process.

This review was performed in accordance with the Council of the Inspectors
General for Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation.

FINDINGS AND RECOMMENDATIONS
Our review found TVA has made improvements to its succession planning
process including the use of a Talent Grid, implementation of succession
planning metrics, and a more accurate attrition prediction model. However, the
following areas for improvement still exist:

   Follow-up of action items identified in talent reviews.
   Cross-pollination of talent.
   Reduction of talent review preparation time.
   Frequent revisions of the talent review and succession planning process have
    caused frustration among TVA management.
   Population of succession plans with realistic candidates.

As part of our review, we identified succession planning best practices and
compared them to the processes TVA currently has in place. We found TVA
could strengthen executive ownership, onboarding of succession candidates, and
transparency of the succession planning process. In addition to these findings,
all TVA managers interviewed expressed concerns with the use of forced
distribution.

TVA HAS MADE IMPROVEMENTS TO SUCCESSION PLANNING
TVA has made improvements to its succession planning process since our
previous review in 2006. Improvements include the use of a Talent Grid,
implementation of succession planning metrics, and a more accurate attrition
prediction model.




Evaluation 2013-14950                                                          Page 3

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                           Evaluation Report


Implementation of Talent Grid
Since our last review, we found TVA has made progress in talent assessment by
implementing the 9-Box. In 2013, the 9-Box was renamed the Talent Grid. The
Talent Grid is a tool to help populate succession plans by assessing employee’s
performance and potential. The Talent Grid has recently undergone changes
including: (1) updating Talent Grid definitions of performance and potential,
(2) linking the Talent Grid to TVA Leadership Principles, (3) unlinking talent and
performance reviews, and (4) requiring forced distribution.

Employee performance is assessed over the past 2 to 3 years. Additionally,
performance is now tied to the TVA Leadership Principles. TVA Leadership
Principles serve as the common understanding of what it means to be a leader at
TVA. As it relates to the talent review process, potential is defined as “leading
self, leading others, and leading TVA.” It is rated based on the likelihood that an
employee can and will grow into a successful leader either laterally at one or
more levels above his/her current position or into a role with significantly
expanded leadership responsibilities. In the past, Performance Improvement
Plans were required for individuals placed in the bottom third of the 9-Box Grid.
This is no longer a requirement. Currently, there is a focus to differentiate
between talent reviews and performance reviews to reduce confusion.
Performance reviews are for all employees and focus on the past to present.
talent reviews are for formal leadership positions that focus on the future and
help evaluate bench strength.

Succession Planning Metrics Are Now Being Tracked
Our review found that in 2011, TVA began using metrics to track succession
planning at the executive level. Using metrics as an indicator of performance
and tracking progress of a succession plan program is a best practice and can
help determine if succession planning initiatives are achieving the intended
results. TVA currently tracks the following metrics: (1) Succession Pipeline
Depth and (2) Key Positions filled with Succession Planning Candidates.

Succession Pipeline Depth measures the average number of employees
currently ready for promotion for each role in the organization’s succession
planning program. Key Positions Filled with Succession Planning Candidates is
the percentage of key positions filled with succession planning candidates. As of
March 2013, TVA was meeting its stretch goal of 2.2 for Succession Pipeline
Depth, which places it in the median quartile in the industry. The goal for Key
Positions Filled with Succession Planning Candidates is 80 percent in fiscal year
(FY) 2013. TVA met its goal of 75 percent in FY2012. However, as of
March 2013, performance is lagging the 80 percent target for FY2013 with only
40 percent of positions filled by succession planning candidates. The 80 percent
is a significant improvement over the first half of FY2006 when only 114 of
393 hires were pipeline hires.5 In addition to these metrics, the Senior Manager,
Talent Management and Acquisition, tracks the number of gaps on the
5
    This metric was based on TVA-wide hiring data for the first half of FY2006. However, for the purposes of
    this audit, pipeline hiring was reviewed only at the manager and specialist level.
Evaluation 2013-14950                                                                                Page 4

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                         Evaluation Report


succession plan, which is the number of key roles without an RN candidate.
There are currently 14 executive positions that do not have an RN candidate,
which puts TVA in the bottom quartile for RN candidates. TVA plans to mitigate
this through the use of (1) talent reviews, including a detailed succession plan;
(2) utilizing leadership development resources; (3) competitive compensation
plans; and (4) position contracts. Additionally, TVA has begun to track diversity
metrics to compare the makeup of the incumbent pool with the candidate pool.
According to TVA management, diversity is a focus.

Improvement of Attrition and Retirement Data
We also found that progress has been made since the last Office of the Inspector
General review regarding attrition and retirement data. Specifically, the attrition
and retirement prediction model TVA currently uses is an improvement to the
previous self-reported retirement data. TVA has taken steps to improve the
prediction of attrition and retirement. According to TVA, the new prediction
model, which has been in place for a year, has been 92 percent accurate on
overall attrition. TVA is working on a probability table to help predict attrition and
retirement at the individual level. Also, TVA evaluates the retention risk (“high,”
“medium,” or “low”) of succession plan incumbents, based on factors, such as
forecasted retirement, job satisfaction, TVA tenure, etc.

AREAS FOR IMPROVEMENT STILL EXIST
While TVA has made progress in its succession planning process, we found
there are still areas for improvement. Specifically:

   Follow-up of action items identified in talent reviews.
   Cross-pollination of talent.
   Reduction of talent review preparation time.
   Frequent revisions of the talent review and succession planning process have
    caused frustration among TVA management.
   Population of succession plans with realistic candidates.

Follow-Up of Action Items Identified in Talent Reviews
During multiple interviews, we were informed that accountability and commitment
to follow up on actions identified in the talent review process is a hard spot.
During talent reviews, gaps are identified to determine what development
opportunities or enhancements are needed. According to the Senior Manager,
Talent Management and Acquisition, an Action Item Tracking spreadsheet has
been developed for the use of Employee Relations Consultants (ERC) during
talent reviews to hold TVA management accountable for leadership development.
Additionally, HR hopes to use this to identify trends by SBU and Business Unit.




Evaluation 2013-14950                                                             Page 5

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                           Evaluation Report


However, during our review of TVA policies and procedures related to succession
planning, we noted TVA is not developing organizational action plans as outlined
in TVA-SPP-11.301, Succession Planning, Section 3.2.3, which states:

         Each organization will develop an organizational action plan to
         address critical and strategic succession planning issues for the
         organization. The action plan will include identification of critical
         gaps in bench strength and actions to mitigate the gap (i.e.,
         external hiring, development initiatives such as rotational assign-
         ments, etc.)[.]

The Senior Manager, Talent Management and Acquisition, hopes the Action Item
Tracking spreadsheet would be able to capture some aspects of the
organizational action plan. Since all aspects of the organizational action plan
may not be captured, developing documented organizational action plans could
help ensure that actions are taken for gaps identified including organizational
needs and development of high potential candidates. For example, there are
currently 14 executive positions that do not have an RN candidate that could be
reduced by developing organizational action plans. Additionally, developing
documented organizational plans could help identify talent management trends
TVA-wide and by organization.

Cross-Pollination of Talent
Another hard spot identified during our review was cross-pollination, which is the
identification and placement of talent across organizations. Currently, SBUs
store their succession plans and talent review information on different databases.
Although cross-pollination has been identified as an issue, there is no formalized
plan to address this concern. Having succession plans that could be accessed
across the organization in a unified system could help address this issue.
Additionally, cross-SBU discussions could help to share talent and identify where
a candidate in one organization could be a potential candidate in another. While
this may not be applicable for all organizations in TVA due to specialized skills
and knowledge, cross-pollination could bring new perspectives and increase the
number of candidates across organizations.

Reduction of Talent Review Preparation Time
The utilization of technology in succession planning can assure use of timely
information and reduce time required to manage the process. An ER manager
stated it would be helpful to be able to look up specific skills, qualifications, or
employee location information. Additionally, ERCs stated that succession
planning is a very manual and time-consuming process; ERCs manually gather
and maintain information to prepare for talent reviews. According to the Senior
Manager, Talent Management and Acquisition, there were plans to purchase the
succession planning module in PeopleSoft as part of People Lifecycle United
System, a new HR information system, which would help with succession
planning analytics. However, funding for this module is not currently approved.
Having a succession planning tool could assist in reducing the preparation time

Evaluation 2013-14950                                                               Page 6

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                         Evaluation Report


for talent reviews by having a centralized database for which talent information
could be accessed by appropriate personnel.

Frequent Revisions Have Caused Frustration Among Management
Although there have been improvements to the talent review and succession
planning process over the years, the frequent changes have caused some
frustration among TVA management. Specifically, the definitions of performance
and potential have changed, and TVA now uses forced distribution within the
Talent Grid. One TVA manager stated employees have said, “Why should I learn
this if it’s going to change again?” Multiple ERCs stated consistency was a hard
spot, and they would like to see the talent review process, including the Talent
Grid and definitions, not change for some time.

Consistency of the talent review process could allow TVA management to
understand, adapt, and utilize the implemented changes. Additionally, this will
enable TVA HR to evaluate associated metrics to determine if (1) changes and
initiatives are working, and (2) they are getting the intended results.

Population of Succession Plans With Realistic Candidates
During our review, we found there were instances in which succession plans
included candidates who were qualified but unwilling or unable to move as
required by the position. Some ERCs interviewed also expressed concern that
an organization might populate succession plans with candidates to reduce gaps
on the plans. This could lead to unqualified candidates on succession plans. For
example, a former executive stated he did not agree with the individual selected
as a candidate for his position because the candidate had never managed, had
subordinates, or worked in any of the executive’s areas of responsibility.
However, TVA HR anticipates the recent changes to the talent review process
will create more realistic succession plans with more qualified candidates.

Realistic succession plans must also include key positions that cannot be easily
replaced internally or externally. In some cases, these positions may be buried
further in the organizations. TVA has identified its lack of an official definition for
a mission critical position as a hard spot in its talent management initiatives but is
taking steps to create one in the SWM SPP (Standard Programs and Processes)
draft.

SOME BEST PRACTICES COULD BE STRENGTHENED
As part of this review, we identified ten succession planning best practices and
compared them to the processes TVA currently has in place. We found TVA
could strengthen executive ownership, onboarding of succession candidates, and
transparency of the succession planning process. Table 1 on the following page
includes identified best practices TVA has incorporated.




Evaluation 2013-14950                                                             Page 7

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                         Evaluation Report


                     Table 1: Best Practices TVA Has Implemented

     Identified Succession
                                                       Identified TVA Practices
    Planning Best Practices

                                    In TVA’s Strategic Plan entitled “Delivering the Vision,” one of
                                     the focus areas for organization health is to motivate and
                                     develop. This includes promoting excellence in business
    Aligns with company’s            performance, leadership development, and talent management.
        strategic plan.             Succession Planning is part of TVA’s SWM. TVA has begun
                                     implementing SWM initiatives into business planning to better
                                     connect business strategies with workforce planning efforts,
                                     which will help identify leadership and talent needs across TVA.
                                    Succession plans are reviewed semiannually; quarterly for the
                                     Nuclear Power Group (NPG). Going forward, TVA HR has
        Periodic review.
                                     indicated it will conduct an on-going evaluation of its succession
                                     planning strategy.
                                    TVA has developed and stores job descriptions containing
      Identify and develop           competencies and qualifications. Specifically, all key roles
         competencies.               included on the executive succession plan during FY2013 have
                                     a job description.
                                    TVA’s Training, Development, and Organization Health group
                                     provide guidance on development planning and delivery
                                     competency development, mentoring/coaching, formal training
                                     (e.g., L-Map, Excel, Supervisor Academy, etc.), and informal
                                     training (e.g., online learning and on-the-job).
                                    Employees are expected to develop and maintain their skills.
      Internal and external          Supervisors provide support, feedback, and resources to
           training and              support employee learning and development. Consistent with
          development.               available resources and TVA goals, employees maintain and
                                     develop their skills through participation in leadership and
                                     technical training, on-the-job coaching, external training and
                                     conferences, rotational assignments, special projects, self-
                                     study, and other on- and off-the-job experiences. Additionally,
                                     a formal Individual Development Plan is required for some
                                     employee groups.
                                    TVA uses the Talent Grid to evaluate candidates based on
    Use of a rating system.
                                     performance and potential.
        Efforts must be
                                    TVA has started to monitor its performance by capturing
    monitored and evaluated
                                     succession planning metrics.
        (e.g., metrics).
                                    TVA captures current workforce demographics, attrition/
                                     retirement and diversity, and inclusion data as part of SWM.
      Workforce analysis.            TVA participates in benchmark studies6 to determine how it is
                                     doing compared to others in the utility and nonutility industries.




6
     TVA participates in the Corporate Leadership Council and PricewaterhouseCoopers Saratoga
     benchmarking studies.
Evaluation 2013-14950                                                                              Page 8

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                       Evaluation Report


While TVA has incorporated several best practices, the following are best
practices that strengthening would benefit TVA’s succession planning process:
(1) executive ownership, (2) onboarding and transitioning successors, and
(3) greater transparency.

Executive Ownership
Executive ownership was identified as a best practice, because buy-in of the
succession planning process should be gained from all levels of management,
starting with the Chief Executive Officer. Through interviews with ER personnel,
we found executive ownership is more evident in some organizations than in
others. Based on our observations, NPG exemplifies more executive ownership
than other SBUs. The NPG conducts talent reviews and updates succession
plans quarterly, strives to promote from within, offers rotational assignments, and
has developed a deep dive program as a pipeline to the succession plan and job
paths/career maps. A TVA manager and an ER manager both stated the Chief
Nuclear Officer expects that managers prepare and follow through in regard to
succession plans. Additionally, NPG currently has an internal hiring pipeline of
86 percent for FY2013. However, the Office of General Counsel has not had
much interaction with ER during its succession planning process until recently.
Interviews with ERCs from various organizations have stated executive
ownership is an area for improvement. Additionally, a TVA executive stated the
TVA executive team, at this point, does not own leadership development.

Succession planning will be more valuable if all executives own the process to
identify future leaders in its organizations. Creating a culture that understands
the value of succession planning and is committed to individual development
starting at the top of the company could be beneficial to TVA.

Onboarding Successors
Another best practice identified was the process of onboarding successors, since
providing transition support for newly appointed managers to ease them into their
new assignments is a practice that increases the likelihood they are effective in a
new position. TVA has an Onboarding SPP (TVA-SPP-11.2.5, Onboarding),
published TVA-wide that outlines the external hiring process and the process for
orientating new employees. TVA also publishes a Manager’s Guide to
Onboarding along with an executive transition guide. Additionally, TVA has
developed job transition guides for individual contributors, managers, and
executives. These guides provide resources and best practices on how to
accelerate through challenges associated with transitioning to a new job.
However, based on our search of the TVA Procedure Center and interviews with
ERC’s, there is no official internal onboarding process for leaders and managers
by SBU, with the exception of the NPG. NPG-SPP-11.19, New and Transitioning
Leaders, provides guidance, assistance, and reference for assisting the effective
and efficient transitioning of leaders into new roles. While other TVA onboarding
and transitioning guides focus on familiarization with TVA and its processes and
procedures and resources and best practices for transitioning into a new role, this
SPP provides detailed roles and responsibilities as well as guidance for the first

Evaluation 2013-14950                                                           Page 9

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                      Evaluation Report


120 days for transitioning NPG leaders. Additionally, the SPP contains a list of
NPG documentation the transitioning leader should be familiar with. During
interviews with ERCs, we were informed that if a candidate is ready now and HR
has done a proper job, the candidate should be ready to assume the position.
Although ERC’s indicated tools, such as supervisory tool kits, management
workshops, and job shadowing are used to prepare succession candidates, they
also indicated a formalized transition process would be helpful. Additionally, one
ER manager mentioned sometimes an individual is “just thrown in” to their new
position. Providing support (such as through a mentor and/or additional training)
could assist employees with a more effective transition. A formalized transition
plan by SBU, similar to what NPG has developed, could help ensure that all tools
within TVA’s disposal are used to help acclimate and prepare the new successor.

Transparency
Transparency, surrounding succession planning, was identified during our review
as a best practice. Employees should be aware of a company’s succession
planning process and related policies. Through interviews with ER personnel
and TVA executives, we found there are some issues surrounding the
transparency of the succession planning process as well as the Talent Grid.

Communication with employees can be beneficial to help them understand their
strengths, weaknesses, and any gaps they may have. TVA managers should
have, with help from HR if needed, realistic conversations to let individuals know
where they stand in regard to performance and potential. According to the
Society of Human Resource Management, 7 companies may fear transparency
could create an “elitist mentality;” however, if handled with tact, it could improve
the succession planning process. Additionally, the Society states that while there
may be a short-term downside of attrition and dissatisfaction for some employees
who have not been identified as top-talent, increased transparency allows those
who may not be advancing to understand why.

Through interviews, it appears there is confusion among employees on how the
succession planning process works. Although TVA has a succession planning
SPP, communication about the succession planning process to employees could
be improved. Outlining, at a high level how the talent review process works,
including the Talent Grid and how that is used as a tool to place individuals on a
succession plan, would help provide clarity to employees. Explaining the recent
changes, including the differences between performance reviews and talent
reviews, will help demystify the process and alleviate anxiety among employees.

Through interviews with TVA management, ERCs, and other TVA employees,
concerns have been expressed about their Talent Grid placement. ER
encourages TVA management to discuss an employee’s potential but does not
encourage managers to disclose Talent Grid numbers. According to the Senior
Manager, Talent Management and Acquisition, the intention was never to
7
    The Society of Human Resource Management is the world’s largest association devoted to HR
    management.
Evaluation 2013-14950                                                                           Page 10

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                      Evaluation Report


disclose the Talent Grid or 9-Box number, but to use it to drive discussion.
However, we found during our review, some TVA managers will disclose Talent
Grid numbers if asked by an employee. One manager stated that it can be
discouraging to employees if there is a “hidden number” they are not aware of
that affects their career, but they are not able to know it. One employee hoped
the idea of revealing Talent Grid numbers would be reevaluated so employees
would know what needed to be improved on. The employee stated it was a
“gaping hole for transparency” and felt it was hard having a conversation with an
unknown number associated with an employee. Open communication of
performance and potential could reduce anxiety and confusion among
employees, related to Talent Grid ratings.

ADDITIONAL INFORMATION
TVA uses forced distribution (also known as forced ranking) in conjunction with
the Talent Grid. According to TVA HR, this allows for better differentiation of
succession planning candidates in terms of performance and potential and will
force better discussion of these candidates. Past performance and potential will
be evaluated independently to assess two different dimensions of a leader.
Employees are considered relative to other employees on the Talent Grid. At the
executive level, a pilot of forced distribution was conducted in 2012. According to
TVA HR, pilot results included better conversations during the calibration of
employees and better defined action items.

However, all TVA managers interviewed expressed concerns with the use of
forced distribution. Reasons mentioned included difficulty (1) understanding the
purpose of forced ranking into thirds and (2) of implementation due to a small
pool of direct reports and the lack of commonality within direct reports’ job
responsibilities. Specifically, one manager stated that he did not understand how
a team of top performers could be distributed into thirds. Communicating the
reasoning behind the use of force distribution and working with managers to
address their difficulties could increase manager buy-in and increase
effectiveness of the talent review process.

RECOMMENDATIONS
We recommend the Senior Vice President, HR and Communications:

   Work in conjunction with TVA organizations to improve follow-up actions by
    developing organizational action plans as stated in TVA-SPP-11.301,
    Succession Planning, Section 3.2.3.
   Evaluate options to incorporate cross-pollination of TVA organizations into the
    succession planning process including a unified succession planning system
    that could also reduce talent review preparation.



Evaluation 2013-14950                                                         Page 11

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                       Evaluation Report


   Determine if changes and initiatives to the talent review and succession
    planning process are working and intended results are achieved before
    additional changes are made.
   Complete and implement the SWM SPP, including a unified definition for a
    mission critical position.
   Work with TVA management to develop a plan that promotes executive
    ownership of talent development.
   Consider developing formalized transition plans, similar to NPG, in other
    organizations.
   Clarify the succession planning process by producing a high-level, TVA-wide
    communication that describes the talent review and succession planning
    process, and consider the merits of communicating performance and
    potential.

TVA Management’s Comments – The Senior Vice President, HR, provided a
written response to a draft of this report. TVA management agreed with the
findings and recommendations in this report.

In response to the recommendations, management plans to (1) continue the
evaluation of the succession plan process to evaluate the effectiveness of the
tools and implementation; (2) incorporate a definition of mission critical positions
in TVA-SPP-11.103; (3) review the transition plans used in NPG, and determine
which elements are appropriate to use across TVA; and (4) evaluate the cost and
benefits of communicating performance and potential as it relates to specific box
placement on the Talent Grid. In addition, management is determining the
appropriate actions to address the remaining recommendations.

See the Appendix for TVA’s complete response.

Auditor’s Response – The Office of the Inspector General concurs with TVA
management’s comments.




Evaluation 2013-14950                                                          Page 12

                                  TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 1 of 2




TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 2 of 2




TVA RESTRICTED INFORMATION
